<html>
<title> - ETHIOPIA AFTER MELES: THE FUTURE OF DEMOCRACY AND HUMAN RIGHTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
     ETHIOPIA AFTER MELES: THE FUTURE OF DEMOCRACY AND HUMAN RIGHTS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 20, 2013

                               __________

                           Serial No. 113-71

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
81-570                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8ee9fee1ceedfbfdfae6ebe2fea0ede1e3a0">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Donald Y. Yamamoto, Acting Assistant Secretary of 
  State, Bureau of African Affairs, U.S. Department of State.....     6
The Honorable Earl W. Gast, Assistant Administrator, Bureau for 
  Africa, U.S. Agency for International Development..............    15
Berhanu Nega, Ph.D., associate professor of economics, Bucknell 
  University.....................................................    26
J. Peter Pham, Ph.D., director, Michael S. Ansari Africa Center, 
  Atlantic Council...............................................    44
Mr. Obang Metho, executive director, Solidarity Movement for a 
  New Ethiopia...................................................    60
Mr. Adotei Akwei, managing director for government relations, 
  Amnesty International USA......................................    71

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald Y. Yamamoto: Prepared statement.............     8
The Honorable Earl W. Gast: Prepared statement...................    17
Berhanu Nega, Ph.D.: Prepared statement..........................    30
J. Peter Pham, Ph.D.: Prepared statement.........................    47
Mr. Obang Metho: Prepared statement..............................    63
Mr. Adotei Akwei: Prepared statement.............................    73

                                APPENDIX

Hearing notice...................................................    96
Hearing minutes..................................................    97
Questions submitted for the record by the Honorable Christopher 
  H. Smith, a Representative in Congress from the State of New 
  Jersey, and chairman, Subcommittee on Africa, Global Health, 
  Global Human Rights, and International Organizations, and 
  responses from:
  The Honorable Donald Y. Yamamoto...............................    98
  J. Peter Pham, Ph.D............................................   101
  Berhanu Nega, Ph.D.............................................   104
The Honorable Christopher H. Smith: Written testimony of the 
  Oromo Democratic Front.........................................   106


     ETHIOPIA AFTER MELES: THE FUTURE OF DEMOCRACY AND HUMAN RIGHTS

                              ----------                              


                        THURSDAY, JUNE 20, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 11:28 a.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order and good 
morning, and I deeply apologize for the lateness in starting.
    We never know, when we put together a hearing, what the 
voting situation will be like on the floor. We just had 14 
votes and we have more, unfortunately, in the not too distant 
future. So I apologize in advance for the delay.
    Today's hearing will examine the human rights and 
governance situation in Ethiopia and the status of U.S. 
relations with Ethiopia. Given Ethiopia's important cooperation 
in opposing Islamic militants in Somalia as well as its 
cooperation in other counterterrorism and peacekeeping efforts, 
the administration, has been reluctant, in my opinion to 
seriously hold the Ethiopian Government to account for 
persistent egregious human rights violations, including the 
inability of the opposition political parties to function, 
restrictions on civil society organizations, journalists that 
are prevented from operating freely, and forced removals of 
citizens from their lands. I know they're raised but my hope is 
that additional weight will be given.
    According to USAID's Assistant Administrator for Africa, 
Earl Gast--and we're very delighted to have you here--USAID 
believes that open channels of communication with the Ethiopian 
Government create opportunities to influence democracy rights 
and governance issues and I know that is a very real and 
powerful belief and it may work.
    But, unfortunately, we haven't seen the fruit. However, 
Amnesty International will testify today and I quote, ``[s]ince 
2005 the human rights situation in the country has deteriorated 
still further with significantly increased restrictions placed 
on freedom of expression, association and other rights. Sadly, 
the Ethiopian authorities have not acted in a vacuum during 
this period.'' According to Amnesty, the U.S. ``and others in 
the international community have failed to raise concern over 
the government's systematic violation of human rights and 
flouting of its international obligations. The failure to speak 
out and press for change has emboldened the government and has 
allowed Ethiopia to set a dangerous example for other 
governments in the region to emulate. It is critical that the 
United States and other members of the international 
community,'' Amnesty goes on, ``press the Ethiopian authorities 
to address human rights concerns and repeal and reform key 
legislation and policies.''
    Amnesty also notes that in its testimony that ``[f]or 
Ethiopians held in detention, conditions continue to be 
extremely harsh. Torture is regularly reported to take place 
during interrogation in the initial stages of detention, often 
before the detainees have access to their families or to legal 
representatives. Prisoners have been slapped, suspended from 
the walls and ceilings by their wrists, beaten with various 
objects, denied sleep, electrocuted, and had weights suspended 
from their genitalia. Solitary confinement for extended periods 
is often reported. Within prison facilities, sanitation was 
often reported to be poor. Amnesty International has received 
reports of medical resources being withheld and reports of 
deaths in custody.''
    I would note parenthetically, and I'll never forget it, in 
the 1980s as a relatively new Member of Congress--I was elected 
in 1981--reading Amnesty's report called ``Tortures in the 
80s'' and it talked about what was going on in certain African 
countries including Ethiopia and barbaric mistreatment of 
detainees and, sadly, as they will say today, it continues in 
Ethiopia today.
    Ethiopia is Africa's second most populous country after 
Nigeria, as we all know, and the United States considers its 
government to be an important development and regional security 
partner, as it is.
    Ethiopia plays a key leadership role in the region, hosts 
the African Union headquarters, and is a major troop 
contributor to U.N. peacekeeping operations.
    According to the State Department, the three pillars of 
bilateral relationship with Ethiopia are economic growth and 
development; democracy, governance, and human rights; and 
regional peace and security.
    Deputy Assistant Secretary of State in Human Rights and 
Labor, Karen Hanrahan, stated in October, in a speech that 
``advancing democracy and human rights is one of our highest 
priorities in our engagement with Ethiopia.''
    Nevertheless, it has been difficult to get cooperation from 
the current and previous administrations in confronting the 
Government of Ethiopia. As you know, Ambassador Yamamoto, under 
the Bush administration I actually introduced the Ethiopia 
Human Rights Act because of that lack of cooperation and that 
lack of progress.
    In June 2005, following a contentious election in which 
Prime Minister Meles and his party seemed to suffer unexpected 
losses, demonstrators led by college students took to the 
streets to protest a delayed release of the election results.
    The government's reaction was to deploy snipers who shot 
and killed protestors and to jail hundreds of others. An 
increasingly violent response to protests took place in 
November of that year. The death toll resulting from both 
protests was put at 193, but the numbers arrested has never 
been confirmed.
    In the summer of 2005, I travelled to Ethiopia, along with 
Greg Simpkins, to assess the situation and to meet with Prime 
Minister Meles, members of his government, political opposition 
leaders, including one of our witnesses today, Berhanu Nega, 
civil society representatives, the religious community, and the 
diplomatic community as well.
    What I found was a government leader who was arrogant in 
his certainty that he could arrest his political opposition 
whenever and wherever he wanted.
    I also found a political opposition convinced that they had 
won a majority in the legislative elections of that year. 
Unfortunately, the government's view won the day and I do say, 
Ambassador Yamamoto, I know you spoke out here as well as in 
Addis over and over again expressing the consternation and the 
opposition of the administration and, of course, of the State 
Department and I always will thank you for that.
    Mr. Nega and other political leaders were arrested and held 
in jail for more than a year on charges that they had to 
continually be changed due to the repeated failure to convict 
them.
    Some of them who managed to be released from jail found 
themselves forced to live outside the country, such as Mr. 
Nega. The political space for opposition parties, as you say in 
your testimony, is restricted.
    The imprisonment and prosecutions of political prisoners 
has dissolved parties and caused reformulations that also 
weren't able to continue.
    Mr. Nega founded Ginbot 7, a new political party in 
Ethiopia, but 2 years ago it was declared a terrorist 
organization by the Meles government and not only was it unable 
to operate openly but Ethiopian journalists were prevented from 
reporting on the party or on its statements.
    Similarly, the Government of Ethiopia, according to the 
State Department's human rights report, continues to imprison 
more than 400 opposition leaders, activists, and local 
journalists by the end of 2012, many on vague national 
security-related charges.
    As of 2011, the Ethiopian Government had completed long-
term cheap land leases on more than 3.6 million hectares, 
equivalent to the size of the Netherlands, mainly to large-
scale foreign agricultural investors. In addition, 2.1 million 
hectares of land have since been made available for such leases 
to foreigners.
    An estimated 1.5 million Ethiopians in four regions have 
been displaced, many of them subject to a supposedly voluntary 
program known as ``villagization.''
    Other displaced due to these land leases, or because of 
major dam projects, now reside in refugee camps in Kenya.
    Despite an unacceptable political human rights environment 
in Ethiopia, we hold out some hope that the post-Meles 
government may yet change.
    I remember when you testified, Ambassador Yamamoto, in 
2006, you talked about being at a crossroads and the hopes for 
change. We're right back there with that hope for change.
    Earlier this month, thousands of Ethiopians protested 
political repression in the capital city of Addis Ababa. Under 
the late Prime Minister Meles, such a show of defiance likely 
would have been met with official violence, snipers, and mass 
arrests.
    But the government of the current Prime Minister, 
Hailemariam Desalegn, did not react that way and this is an 
encouraging sign.
    Our witnesses today include the former U.S. Ambassador to 
Ethiopia, the U.S. official in charge of our significant aid 
portfolio to Ethiopia, the former elected mayor of Addis Ababa, 
a member of the first U.S. delegation to meet with the current 
government, and a long-time Ethiopian activist on human rights. 
I look forward to your testimonies and yield to my friend and 
colleague, Ms. Bass.
    Ms. Bass. Thank you very much, Mr. Chair, for having this 
meeting. I want to get quickly to the witnesses so I just want 
to make a brief statement.
    One, I had the privilege and honor of being in Addis Ababa 
a few weeks ago at the 50th anniversary of the African Union 
along with Ambassador Yamamoto, and it was exciting to be there 
and I look forward to going back in August for a seminar with 
the Aspen Institute.
    I think that there are a lot of exciting things happening 
in Ethiopia--the economy. I'm hoping that things will be worked 
out with Egypt over the development of the dam and as we think 
about the economic progress and I think, you know, most folks 
around the world do celebrate that, I do have to say that from 
the district that I represent in Los Angeles there's an area of 
my district that's called Little Ethiopia.
    And I know we debate as to who has the largest Ethiopian 
population outside of the country but I know that L.A. is 
either number one or number two behind the District of 
Columbia.
    And I will tell you that since I have represented the 
area--I've been in Congress 3 years but I was in the state 
legislature for 6 years before that and for all 6 years I heard 
from the Ethiopian residents who have consistently expressed 
their concerns about the human rights issue, especially after 
the '05 election.
    I was actually preparing to go and then the election 
happened and it, clearly, became a situation where I couldn't 
travel there. But over the years, I have heard about a number 
of the human rights abuses that the chair described.
    There have been people that have visited Los Angeles who 
have been persecuted in the country and came to, one, see if we 
would be able to support them in the United States, and I know 
many of my constituents feel that they can't even go home to 
visit.
    And so I'm looking forward to the testimony. I want to get 
to that. As the chair said, we probably are going to be 
interrupted again. I'm hoping we'll be able to get through both 
panels before we have to go back for an even longer series of 
votes.
    So I thank the witnesses for coming this morning. I look 
forward to hearing what you have to say, as I always do, 
especially from the two of you.
    But, you know, I really would like to take the opportunity 
of this hearing to drill down and find out exactly what the 
situation is, what our Government is doing about it and what 
the future might hold.
    So thank you very much.
    Mr. Smith. Thank you. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    As you know, Ethiopia is a critical U.S. ally and they have 
helped us oppose, you know, Islamist militants in Somalia, they 
host the African Union headquarters and, as has been mentioned, 
the second most populous country in Africa.
    So they're the key to the Horn of Africa and the--also the 
key to East Africa and to some extent the Arabian Peninsula, 
and even yesterday we heard about attacks at the UNDP office in 
Mogadishu. And this region as a whole is still very volatile 
and so the importance of an ongoing relationship with Ethiopia 
cannot be overstated.
    And so that's why it's disheartening to see some of the 
problems that we still need to address there. One party, as has 
been mentioned, dominates Ethiopia's political system. The 
media is often harassed. Basic freedoms are still restricted.
    So these are real concerns and as Ethiopia's Parliament 
passes new, regressive laws we need to see steps forward and I 
am hoping to hear today from you those steps that we can take 
that will move forward and that exist.
    And as Ethiopia is one of the largest recipients of U.S. 
bilateral assistance in Fiscal Year 2012, as we continue to 
look to Ethiopia to be a good friend we want to make sure that 
those relationships are not only good for the United States but 
for the people of Ethiopia as a whole.
    And with that, Mr. Chairman, I yield back.
    Mr. Smith. Thank you very much, Mr. Meadows.
    I'd like to now welcome our very distinguished witnesses, 
beginning with Ambassador Donald Yamamoto, who is no stranger 
to this subcommittee, having testified before us several times 
in the last session of Congress and again a few weeks ago.
    He is now serving with distinction as the Acting Assistant 
Secretary in the Bureau of African Affairs in the U.S. 
Department of State.
    His prior assignments included serving as U.S. Ambassador 
to Ethiopia as Deputy Assistant Secretary of State in the 
Bureau for African Affairs and most recently as Principal 
Deputy Assistant Secretary in that bureau.
    He also served in Djibouti, Eritrea, Japan, and China and, 
again, has had a long and distinguished career in the Foreign 
Service.
    We'll then hear from Mr. Earl Gast, who is USAID's 
Assistant Administrator in the Bureau for Africa and his work 
at USAID is leading development programming, especially in 
post-conflict and transitioning societies.
    He's also been a frequent witness before this subcommittee. 
We always benefit from his insights and counsel. Prior to his 
current position, Mr. Gast served in Afghanistan, Colombia, 
Eastern Europe, and Rome.
    Mr. Gast was also one of the first USAID employees 
stationed in Iraq. He played an equally important role in 
developing the post-crisis strategy for Kosovo, overseeing all 
mission operations. Most prominently, he received the Agency's 
Award for Heroism and the Distinguished Unit Award.
    Gentlemen, please proceed, beginning with Ambassador 
Yamamoto.

STATEMENT OF THE HONORABLE DONALD Y. YAMAMOTO, ACTING ASSISTANT 
SECRETARY OF STATE, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Mr. Yamamoto. Thank you very much, Chairman Smith, Ranking 
Member Bass, and the other honored members, and I ask for 
submission of my full statement for the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Yamamoto. On my oral presentation I want to add points 
that are kind of different from the statement that I've 
submitted.
    Today's hearing raises issues that will advance the hope of 
Ethiopia's people for the future of their country yet the path 
that lays ahead will be marked on how the people, the 
government, the opposition, and civil society can work 
cooperatively and harmoniously together to come to terms not 
only with Meles' legacy but how they will work together to 
define or possibly redefine the future course for Ethiopia.
    What Meles achieved when he was the Prime Minister for 
Ethiopia was economic growth, set political policies that have 
guided Ethiopia since the fall of the Derg, and the 
establishment of Ethiopia's regional and international 
importance.
    The Prime Minister became the indispensable negotiator in 
Somalia, the critical mediator in Sudan, the eloquent 
spokesperson for all of Africa on climate and development 
challenges.
    He proved to be an effective person whose persuasive and 
forceful negotiation style and intellectual depth of 
understanding of issues set the tone and course of discussions 
on important domestic and regional issues.
    His articulate discussions of issues with crystal clear and 
insightful assessment distinguished him as a political leader 
and also brought Ethiopia and Africa heightened respect and 
authority.
    However, the cost of his efforts also raised concerns. As 
Ambassador, I raised, on behalf of the United States, our voice 
on the narrowing of political space and we spoke clearly and 
decisively that the laws in--which were passed in and by 
themselves may appear logical and necessary but when taken 
together and implemented without judgement or judicious 
temperament could prove not only a severe obstacle to personal 
freedoms and economic independence but also, if pursued without 
wisdom, could significantly alter Ethiopia's image in a 
profoundly negative manner.
    How Ethiopia's people, political rulers, opposition groups, 
and civil society work together to deal with not only the 
legacy of Meles but to define where the country moves--either 
forward in a hopeful direction or into gridlock of political 
partisanships dominated by uncompromising views where alternate 
views or voices are based on what is merely wrong rather than 
what needs to be done, what must be achieved to realize a more 
democratic and hopeful future for Ethiopia, remains a 
challenge.
    Ethiopia, again, I believe, is at an important crossroads 
in which the country, mindful of its past, has the opportunity 
to move forward. As Congresswoman Bass said, she and Secretary 
Kerry were at the African Union Summit and there Prime Minister 
Hailemariam as President of the African Union outlined a key 
direction not only for Ethiopia but for all of Africa.
    That is to invest in the economy, to realize a 
transformation to a more technical world, investment in 
technology and vocational education, commitment to 
infrastructure development, overcoming bureaucratic red tape 
and unreasonable laws and, finally, to promote democratic 
values.
    These are great challenges as well as great hopes. If not 
handled astutely and with great political skill as well as with 
courageous and decisive action, Ethiopia may also go down a 
very different path in which its future could be sacrificed to 
partisan politics.
    It will take much understanding, compromise, tempered by 
deep commitment to achieve what is in the interests of the 
people of Ethiopia and not in deference to political positions 
or personal preferences.
    And so the United States will forever remain dedicated to 
the core values and goals of democratic values and human rights 
policies as well as economic prosperity and security.
    We stand firmly with Ethiopia, its people, its future 
generation to achieve together a better future for Ethiopia and 
for Africa, and I welcome your questions.
    [The prepared statement of Mr. Yamamoto follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Ambassador.
    Mr. Gast.

      STATEMENT OF THE HONORABLE EARL W. GAST, ASSISTANT 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Gast. Good morning, Chairman Smith, good morning, 
Ranking Member Bass and good morning to all other members of 
the subcommittee, and thank you very much for inviting me here 
to speak before you today on an important topic, and that is 
Ethiopia after Prime Minister Meles.
    The death last year of Prime Minister Meles Zenawi marked 
the end of an era in Ethiopia. Fully half of the population had 
never known another leader or another style of leadership and 
his passing brought with it hope and trepidation for the 
country's future.
    Ten months later, the ruling EPRDF remains firmly in 
control of all organs of government. In recent years, Ethiopia 
has experienced a period of relative stability, marked 
improvements in the well being of its people and an 
increasingly important position in the international community.
    The government's productive safety net program, or PSNP, 
which provides food and cash in exchange for building community 
infrastructure, helped provide 7.2 million persons with income 
and sources and prevented them from slipping into crisis during 
the 2011 to 2012 drought.
    The availability of education and health services has 
flourished. Even in remote communities, economic opportunities 
are expanding for youth and women. Ethiopia is also one of the 
United States' key African partners in fighting terrorism, 
promoting national and regional food security and providing 
peacekeepers in some of the most difficult locations in Africa.
    But at the same time, the Ethiopian Government 
systematically limits space for political parties, independent 
media and civil society to operate, significantly constraining 
the ability of people to influence government decisions and 
hold their government accountable.
    In USAID, we have a two-pronged approach to democracy, 
human rights and governance issues. The first integrates these 
issues into our core programs, in other sectors to support 
social and economic resilience and encourage communities to 
participate in decision making.
    For example, by supporting the creation of decentralized 
financial systems at 76 government hospitals, USAID not only 
improved the quality of medical services but we also 
strengthened these institutions in financial management, 
accountability and transparency.
    The second prong of our approach in Ethiopia capitalizes on 
opportunities as they rise to promote respect for human and 
civil rights. Toward this end, we support political dialogue, 
legal education and court reforms through a variety of 
organizations and through the government itself.
    Although there are major impediments to working with 
Ethiopian civil society groups, we do support the organizations 
that accountability--that accountably deliver services in a 
manner that is respectful to human rights.
    Our strategy is capitalized on Ethiopia's commitment to 
poverty reduction by supporting sustainable development through 
community-based decision making and public involvement in every 
area of our work whether it's agriculture, economic growth, 
health, education.
    We encourage social accountability mechanisms such as 
scorecards and participatory budgeting that helps citizens hold 
government accountable for service delivery and institute the 
practice of participation and dialogue.
    And by working together with the Government of Ethiopia on 
our shared agendas to advance economic growth and development, 
we are fostering opportunities for dialogue about public 
participation and transparency while having real positive 
effects that will accumulate over time into significant change, 
change that will increasingly enable and encourage democratic 
governance.
    Ongoing dialogue with the Ethiopian Government creates 
opportunities to advocate reforms that will hold government 
accountable and gradually expand political rights and civil 
liberties.
    By integrating democracy and governance work into the 
significant investments that we're making, USAID is--we are 
gaining important opportunities to support social and economic 
resilience in Ethiopian society.
    I very much welcome this opportunity to discuss our 
programs in greater detail.
    [The prepared statement of Mr. Gast follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Gast, thank you so much.
    Mr. Gast. Thank you.
    Mr. Smith. Out of deference to our second panel, I'll only 
ask one question because we have so little time because of 
about 2 hours of voting that's pending, I should say.
    You mentioned that sustainable development requires good 
governance. We know that for the Fiscal Year 2013, the actual 
money, of the $351 million in total aid, $1 million has been 
reserved for democracy type programs and you emphasized the 
importance of balance.
    Can that be beefed up or are there opportunities that are 
going awry? And as you know, when it comes to child survival 
and trying to mitigate the problems of HIV/AIDS and all the 
others, I take a back seat to no one, but it seems to me that 
helping get that good governance has to be an equal high 
priority with those other things.
    Secondly, on torture, same question or if you could answer 
it at the same time. I've authored four torture victims relief 
bills to help people who have suffered PTSD and all of the 
physical and psychological deleterious effects from torture.
    I have met with torture victims everywhere in the world. 
I've had hearings where we've heard from them and yet people 
today in Ethiopia are being tortured. What are we doing to stop 
that?
    Mr. Gast. Thank you for your questions, Chairman.
    Working in Ethiopia truly is a dilemma. We, as an agency, 
are elevating the importance of human rights in all of our 
programming. It's a key component of our democracy, human 
rights and governance strategy.
    And the dilemma really is that we're seeing a government 
that is investing in its people. It is doing the right things 
in terms of social investment and social accountability.
    Yet, on the other hand, when we look at specific instances 
that you mentioned--that I know Ambassador Yamamoto will talk 
about and then when we look at indices that measure human 
rights and governance and independent media, we see that space 
is closing and continues to close.
    So it is a dilemma for us and it's a debate that we have 
internally and we also have with our State Department 
colleagues as well as people in the White House.
    So our approach has been to support the good things that 
are happening to support people. That would be in education, 
and when you look, Chairman, at 5 years ago where enrollment 
rates were only at about 20 percent and you see that enrollment 
rates are now at 90 percent, when you see the significant rise 
not only in literacy in the country and among students but 
especially among girls and women, and we look at other health 
statistics including child survival and also maternal 
mortality, we know that the government is making investments.
    Mr. Smith. But on the education front, even in your 
testimony you say that Ethiopia has nearly achieved the second 
Millennium Development Goal to achieve universal primary 
education, but, then the big but, that it is inferior. The 
quality of education is well below standard.
    So with every seemingly good thing, there's seemingly down 
side to it.
    Mr. Gast. Sure, but literacy rates are high and so what 
we're doing as an agency is focusing on outcomes. The numbers 
are good.
    Now we need to focus on the qualitative aspects and we're 
doing that in partnership with the government in training 
20,000 teachers throughout the country and truly emphasizing 
learning outcomes.
    Mr. Smith. And are we visiting political prisoners, 
Ambassador? I'm sorry. There's so little time.
    Mr. Yamamoto. Yes, we are and, of course, when I was the 
Ambassador there we had many discussions and visits to the 
prisons to not only look at the conditions of the prisons but 
also to look at how we can stop any abusive behavior there and 
to investigate and that's what we've been doing quite----
    Mr. Smith. I have several questions that I will submit just 
because of time.
    I yield to Ms. Bass.
    Ms. Bass. I will try to be quick also. I wanted to know if 
you could say--and if you can't and we need to talk afterwards 
let me know--but what happens when we raise the issues of human 
rights? I mean, what's the basis of the contradiction?
    You know, you describe and I'm, you know, aware too of 
Ethiopia's great progress. You mentioned several indices. So 
why is the government so fearful? What is--what's the basis of 
the problem and what happens when we--when we raise it with 
them?
    Mr. Yamamoto. I'll give a couple of examples. During 2005 
when probably about 30,000 people were detained after that 
election and the violence that subsequently followed, there 
were about 71 political prisoners and one of them is going to 
be on your second panel.
    We worked very hard behind the scenes to work with them and 
the government to get them out and also to visit them in prison 
and we did that.
    I think the issue is that the laws that were passed--the 
terrorist laws, the NGO laws, et cetera, had been very 
restrictive and it goes back to where is the comfort level for 
the government and how they can balance between what is 
security related and what really is openness.
    I mean, when you have a country that doesn't even have 
Internet connection from Blackberry----
    Ms. Bass. I was going to get to that.
    Mr. Yamamoto. Yeah. So that comes to is why. I mean, why 
not have the openness, and those are things that we're working 
with the government behind the scenes and also in public and to 
show them how the benefits are for these issues.
    Ms. Bass. So the basis of the fear? I mean, it seems to me 
that that's the reason for this.
    Mr. Yamamoto. It is. It's----
    Ms. Bass. You know, my constituents had asked me--when I 
was in the state legislature they had wanted me to do a 
resolution and then in thinking about it, it might have been a 
resolution in support of what you were doing with the human 
rights bill.
    We weren't able to do that because it--you know, we just 
dealt with state issues. We didn't get into foreign policy.
    But, you know, again, when I talk to constituents they just 
paint such a very different picture and so the basis of the 
fear is a fear, first of all, and the basis of it is----
    Mr. Yamamoto. As I said, this is a crossroad. I mean, if 
Prime Minister Hailemariam said at the AU, in front of 
everyone, democratic values are important, unreasonable laws 
are not good, let's do it. Let's test it. Let's move forward. I 
think that is what we need to do.
    Ms. Bass. Okay. Thank you.
    Mr. Smith. Thank you. Mr. Meadows.
    Ms. Bass. I think Mr.----
    Mr. Smith. Oh, I'm sorry.
    Mr. Gast. We have also seen some recent openings and so, 
for example, the Ethiopian Government has invited some experts, 
foreign experts, to come in to look at registration of 
religious organizations in the country. So we see that as an 
opening.
    A second one is that we are allowed to work with civil 
society organizations that are doing peace building--community 
peace building activities.
    And then the third thing that's happening is a forum that 
will be taken around the country to review and discuss the 
Charities and Societies Proclamation and that's the one that 
severely limits the ability of development agencies of working 
with civil society organizations.
    I can't say that it's a perfect picture. It's nowhere near 
a perfect picture. But there are some openings, as Ambassador 
Yamamoto cited.
    Mr. Smith. Mr. Meadows.
    Mr. Meadows. Mr. Ambassador, I have one question that I'd 
like you to address today, if we can.
    Ethiopia, as we've mentioned, is a de facto one-party 
country and you've noted in your--that the ruling party, you 
know, controls every aspect of government. I think it was 545 
of 547 seats on their Parliament.
    What can we do to help facilitate healthy opposition and if 
there is real--a real opposition party that emerges do you see 
that destabilizing the country or help push for human rights or 
both?
    Mr. Yamamoto. And that's an excellent point and that's the 
dilemma that we face. After the elections we talked to the 
Prime Minister at that time and said we were very, very 
disappointed in that result because we made so many gains in 
2005 though there were problems on violence.
    Are we going backwards? We need to move forward and those 
are the areas that I think we're working with this new 
government and the Prime Minister, Hailemariam.
    How do you develop the opposition to be a very forceful 
voice for the people and how can you allow them to be that 
forceful voice. Those are the areas that we've been trying to 
work very keenly on our democracy issues but also behind the 
scenes and with the government in private.
    It's going to take time and but we are pushing very hard on 
various programs and opportunities. I'll give you a couple 
examples. One of the things in all of Africa, not just 
Ethiopia, is the violence against women. We have started with 
USAID this hotline for battered women to call in and to get 
because that's an opening.
    Another issue is to have the judiciary process to help with 
women and minority groups and others. That's another opening. 
So if we can push things to the--keep on pushing things maybe 
those will be areas for openings to help not only the 
government but also the general atmosphere.
    Mr. Meadows. So do you see an opposition party helping with 
that, with the human rights?
    Mr. Yamamoto. Yes, but I think what the opposition--and I 
defer to Dr. Berhanu Nega, who has better views--is how can we 
help this, because one day the opposition will be the 
government party and vice versa.
    We've told that to the Prime Minister. We've told that to 
the government. You've got to prepare. You cannot rule 
consistently forever. It's impossible, and that's an issue that 
they understand. But how they actually build that confidence 
and that's, I think, the challenges we face.
    Mr. Meadows. So do you think they are fearful of an 
unstable environment? Is that the major opposition to having a 
viable two-party system?
    Mr. Yamamoto. I think that's one part.
    Mr. Meadows. Okay. All right. Thank you both.
    With that, Mr. Chairman, I yield back.
    Mr. Smith. Thank you very much, Mr. Meadows. In conclusion, 
I just want to thank you again. Ambassador Yamamoto, when you 
testified on March 28th, 2006, and I know you did this with the 
utmost sincerity, but you talked about hope for democracy, a 
new chapter, crossroads, and my hope is--hope that springs 
eternal--that we will be dogged in our efforts to ensure that 
this time that Ethiopia gets it right for the people's sake and 
for basic fundamental freedoms and basic human rights. So thank 
you.
    Many questions will be posed. I wish we could do it today. 
Thank you so much for being here and for working so closely 
with us.
    I'd like to now introduce our second panel beginning with 
Dr. Berhanu Nega, who is a Bucknell University associate 
professor of economics.
    He is also the current chairman of Ginbot 7, the Movement 
for Justice, Freedom and Democracy, is one of the leaders of 
the Coalition for Unity and Democracy, and served as campaign 
manager for the party's successful effort during the 2005 
elections.
    He was the first freely elected mayor of Addis Ababa in the 
2005 election and along with all the leadership of the CUD, he 
served 21 months in prison after winning the election.
    I would note parenthetically that when Greg and I visited 
in 2005, Dr. Nega and Greg got in a car to go one place, I got 
in a car to go somewhere else and right behind them was a group 
of secret police who monitored every move that they made. It 
was telling. It was over the top.
    Dr. Peter Pham, again, welcome back. Dr. Pham is the 
director of the Michael S. Ansari Africa Center at the Atlantic 
Council in Washington. He is the incumbent vice president of 
the Association for the Study of Middle East and Africa, an 
academic organization that represents more than 1,000 scholars, 
and is editor in chief of the organization's Journal of the 
Middle East and Africa.
    Dr. Pham was the winner of the 2008 Nelson Mandela 
International Prize for African Security and Development. He 
has authored half a dozen books and chapters, concerning Somali 
piracy, terrorism and stabilizing fragile states, as well as 
more than 80 articles in various journals.
    We'll then hear from Mr. Obang Metho. Mr. Metho is the 
executive director of the Solidarity Movement for a New 
Ethiopia, a social justice movement of diverse interests.
    He has tirelessly advocated for human rights, justice, 
freedom, the environment, and enhanced accountability in 
politics and peace in Africa for over 10 years.
    He has briefed and met with leaders and officials at the 
U.N., European Parliament, State Department, the U.S. Congress, 
the World Bank, and the Council for Foreign Relations, among 
others.
    He defends the fundamental respect for human life and is 
committed to work for the reconciliation, forgiveness, and 
healings of affected people in order to create a positive 
future.
    Then we'll hear from Mr. Adotei Akwei, who is the managing 
director for government relations for Amnesty International. He 
rejoined Amnesty in 2010 after serving as senior policy advisor 
for CARE.
    In this capacity, Mr. Akwei helped develop and implement 
advocacy on CARE's priority issues toward the U.S. Government. 
Before joining CARE he worked with Amnesty International USA 
for 11 years.
    He also served as the Africa director for the Lawyers 
Committee of Human Rights, now Human Rights First, and 
previously served as the research and human rights director for 
the American Committee on Africa and the Africa Fund.
    So Dr. Nega, if you could begin.

   STATEMENT OF BERHANU NEGA, PH.D., ASSOCIATE PROFESSOR OF 
                 ECONOMICS, BUCKNELL UNIVERSITY

    Mr. Nega. Good morning, Chairman Smith, Ranking Member 
Bass, distinguished members of the House Subcommittee on 
Africa. Thank you for inviting me to speak with you today.
    It is indeed a great honor and privilege to have the 
opportunity to appear before you to discuss issues related to 
the future of democracy and human rights in Ethiopia.
    Democracy and human rights have direct implications for 
Ethiopia's survival as a nation. The existence of a 
democratically elected and accountable government that strictly 
adheres to the rule of law and respects the basic rights of its 
citizens is the only arrangement that will assure Ethiopia's 
stability and prosperity in the long term.
    A stable and prosperous Ethiopia contributes to the 
prosperity and stability of the region. An unstable Ethiopia 
has the potential to destabilize the whole Horn of Africa.
    Issues ranging from religious extremism, potential conflict 
over fresh water usage, crippling poverty and looming 
environmental challenge could threaten the livelihood of the 
people in the region and such challenge requires the attention 
and resources of the international community in partnership 
with responsible and accountable leaders in the region.
    It is, therefore, in the economic and national security 
interest of the U.S. and its Western allies to ensure that 
Ethiopia achieves durable stability which can only come from 
genuine democratization rather than settle for a short-term 
tenuous peace that is falsely projected by dictatorships and 
that could collapse with the slightest challenge from a fed-up 
and angry populace.
    Having said that as an introduction, let me quickly and 
directly address the topic at hand. There are three 
interrelated issues. The first deals with the government's 
observance of human rights and democratic principles after the 
days of Meles.
    This is a topic that is least controversial and I have 
addressed it in detail in the written testimony that I have 
submitted for the record.
    Suffice it to say that in every major category of human 
rights and democratization, things are as bad as they were 
during Meles' tenure or even worse in some cases.
    Award-winning journalists are languishing in jail. Ethiopia 
is very close to Iran, Cuba, and Somalia in the number of 
journalists jailed or exiled.
    As a cruel reminder of the elections in communist Soviet 
Union, the ruling party allegedly won 99.6 percent of the 
parliamentary seats under Meles in 2010. As if to outdo Meles, 
in the most recent local elections the ruling party and its 
allies won all of the 3.8 million seats.
    The Independent Election Commission called it a 
manifestation of the maturity of Ethiopian democracy. The 
government is simply allergic to the presence of independent 
organizations.
    It decides on who should be the leaders of religious 
institutions and has the audacity even to attempt to pressure 
Ethiopian Muslims to abandon their faith and convert to a new 
sect that it somehow favors.
    It purposely fosters conflict among different cultural and 
religious communities. Ethnic cleansing of the Amhara from the 
south and Benishangul regions which started under Meles hasn't 
stopped. The forced eviction of indigenous people from the Omo 
Valley and Gambella regions has intensified.
    The judiciary, like all state institutions, is completely 
captured to a point where the faith that people might have in 
finding justice through formal state institutions has been 
obliterated.
    Mr. Chairman, the potential for reforms under the current 
government, which forms the second part of this discussion, is 
at once very critical as well as potentially controversial 
because a discussion about the future by its very nature is 
speculative. In my mind, this issue has two parts.
    The first is my own assessment of the possibility of reform 
under the current regime. The second is a follow-up to the 
first. If there is no reforms, what is going to happen to 
Ethiopia in the future?
    Let me address both of these issues candidly. Much as I 
wish it, I don't see the possibility of an internally driven 
reform leading to a genuine democratic dispensation in 
Ethiopia.
    The ruling clique have committed too many human rights 
crimes, have accumulated too much wealth through rampant 
corruption and have antagonized the population too much to feel 
that they can continue to enjoy a peaceful life after 
relinquishing power, which they know would happen if there was 
to be a truly free and fair election.
    Instead, they believe that they can somehow survive through 
total repression insofar as they can get the foreign aid 
resources as well as the diplomatic support they need to help 
them keep the lead on any potential resistance to their power.
    The only change that Meles' death has brought to the 
situation is that it has revealed the tenuous nature of this 
calculation as it has exposed the internal conflict and 
bickering within the ruling coalition.
    This takes me to the second part of the issue. So what is 
going to happen if there is no possibility of reform coming 
from the government? Will Ethiopians simply accept tyranny and 
live this humiliating existence indefinitely? If I know 
anything about the Ethiopian character, that is one bet I'm not 
willing to take.
    That is why, unfortunately, my assessment is rather 
pessimistic. I think the government's capacity for total 
repression is going to be challenged rather dramatically in the 
near future.
    As the government simply refuses to reform, intensifies its 
repression, deliberately decimates the legal opposition and 
continues to antagonize people in all parts of the country, 
armed resistance has become an acceptable form of struggle.
    The various armed groups have started to talk seriously 
about unifying their actions and their vision for a democratic 
future as the public's attention shifts from the peaceful 
opposition to the armed groups as their last best hope for 
ending their humiliation and freeing themselves from tyranny.
    Mr. Chairman, it is painful to see my country go through 
such turmoil in order to achieve the most basic rights that all 
people in this day and age routinely expect and deserve.
    I wish there could be a peaceful way out of this quagmire 
but I feel that is unlikely. This has serious implications for 
U.S. foreign policy. The current policy of shoring up and 
bankrolling authoritarian rule with the hope that it could 
achieve a modicum of stability in the region is going to face a 
serious challenge.
    Will the U.S. and its allies continue to support a brutal 
regime that is sure to be unstable as the armed resistance 
against it intensifies?
    Will such support ensure the stability of the regime over 
the long run? If the opposition is committed to a pluralist 
democratically elected government in Ethiopia wouldn't it be a 
better and more durable ally than the current regime?
    This takes me to my last point regarding what the U.S. can 
do to ensure reforms. If reform leading to genuine 
democratization is sought, clearly, the policy followed by the 
U.S. and its allies in the past 21 years has not worked.
    The policy of constructive engagement which hopes to cajole 
the government to implement some reforms in exchange for 
financial and diplomatic support has simply failed to achieve 
its objectives.
    Instead, the current policy might unwittingly increase 
instability in Ethiopia. On the other hand, there is a very 
strong argument both on national security and humanitarian 
grounds to keep the situation from deteriorating even further.
    Contrary to prevailing wisdom in the West, the Ethiopian 
Government is amenable to pressure, especially financial 
pressure. A coordinated no-nonsense financial pressure that 
conditions Western aid on clear verifiable measurable time 
bound political reforms that could lead to a democratic 
dispensation is, in my view, the only mechanism that could 
avert the potential crisis that is looming in Ethiopia.
    Mr. Chairman, working toward such an outcome is not only 
the right thing to do but also the smart thing to do. The world 
community has enough experience by now to know that doing 
nothing at the early stage of a crisis would prove to be 
extremely costly later.
    A crisis is looming in Ethiopia and if we act wisely now we 
can avoid a lot of pain and suffering later. I hope the United 
States will play its part to bring about a peaceful and 
sustainable solution.
    Such an outcome is good for the international community, 
good for regional stability and certainly good for Ethiopia. I 
know, Mr. Chairman, under your leadership your committee in 
this House will do its part for the well being of the Ethiopian 
people.
    Thank you very much.
    [The prepared statement of Mr. Nega follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Dr. Nega, thank you very much for testifying.
    [Applause.]
    Mr. Smith. The committee will be in order. Thank you.
    Dr. Pham.

STATEMENT OF J. PETER PHAM, PH.D., DIRECTOR, MICHAEL S. ANSARI 
                AFRICA CENTER, ATLANTIC COUNCIL

    Mr. Pham. Mr. Chairman, thank you for the opportunity to 
testify today on the political developments in the Federal 
Democratic Republic of Ethiopia, especially as they relate to 
democracy and human rights since the death last year of the 
last Prime Minister Meles Zenawi.
    With your permission, I'll present a summary of my analyses 
on these questions and ask that my prepared statement be 
entered into the record.
    Mr. Smith. Without objection, your statement and all the 
other distinguished witnesses' statements and any attachments 
they would like to submit will be made part of the record.
    Mr. Pham. Thank you.
    In addressing Ethiopia's political evolution, and there has 
indeed been a shift even if at times the changes have been 
rather subtle, it's incumbent upon us to recall the enormous 
importance of Ethiopia both in its own right and relative to 
the national interests of the United States and Africa in 
general and in the geopolitically sensitive Horn of Africa in 
particular.
    That context is especially important if any of the 
resulting proposals are to be relevant, realistic and perhaps 
most importantly strategic in the fullest sense of the term.
    Moreover, while it's perhaps too soon after the passing of 
the late Ethiopian Prime Minister to either have sufficient 
time or requisite historical perspective to render anything 
approaching a definitive judgment on the man and his legacy, 
it's worth the effort to at least establish some context by 
recalling just how far Ethiopia has come since the overthrow of 
Mengistu Haile Mariam's Soviet client regime in 1991.
    One does not have to agree with all or even any of the 
specific policy choices made by the Ethiopian Government during 
the last two decades to nonetheless acknowledge the historic 
achievements, including the peaceful succession of Eritrea in 
1993, the introduction of legally recognized linguistic 
pluralism and ethnic federalism in 1994 and the economic 
miracle one of the fastest growing economies in Africa and, 
indeed, the world in recent years which, notwithstanding the 
struggle that life remains for many Ethiopians, has nonetheless 
lifted millions of others out of abject misery in just a 
generation.
    And if it's too soon to properly judge the legacy of the 
late Prime Minister Meles, it certainly is premature to attempt 
to render anything beyond a very initial assessment of his 
successor, Hailemariam Desalegn, who was only confirmed by 
Parliament in his ministerial tenure on a permanent basis on 
September 21, 2012, and subsequently elected as chairman of the 
EPRDF by the congress of the governing coalition in Bahir Dar 
in the last week of March of this year.
    That being said, however, there are several positive and 
indeed tantalizing indications that while the new Prime 
Minister had promised to maintain his predecessor's policies, 
he is also slowly blazing his own trail.
    These include a cabinet reshuffle that rebalance the 
representation within the governing coalition and offered 
recently reaffirmed to U.N. Secretary General Ban Ki-Moon to 
open a dialogue with Eritrea without preconditions, a crackdown 
on corruption that's included the arrest of the ministerial-
ranked Director General of the Ethiopian Revenues and Customs 
Authority and the recent allowing, as other witnesses have 
indicated, of the largest anti-government demonstration since 
2005, an event which I've been assured by senior officials can 
and will be allowed to reoccur as long as the organizers give 
local authorities sufficient notice in order to make necessary 
logistical accommodations.
    To these modest points of data, I would add a brief 
personal observation from having had, even before he became 
Prime Minister, the privilege of discussing a broad range of 
issues with Hailemariam Desalegn.
    He is a man of great intelligence and he's cognizant of the 
challenges before him. On the other hand, one should also 
recognize the political, institutional and other constraints 
which someone in his position faces, especially until such time 
as he's able to win an electoral mandate in his own right.
    With all this in mind, permit me to conclude by commending 
to the subcommittee's consideration five principles to guide 
U.S. policy toward Ethiopia, which I offer in line with the 
prudent norm embraced by President Obama in last year's U.S 
strategy toward sub-Saharan Africa.
    Addressing the opportunities and challenges in Africa, the 
President wrote, requires a comprehensive U.S. policy that is 
proactive, forward looking and that balances our long-term 
interests with near-term objectives.
    So, first, understand that Ethiopia is an ancient country 
populated by proud peoples imbued with a deep sense of history 
and nationhood, all of which has a profound impact on the 
current political reality.
    Secondly, recognize both the opportunities within the 
historic moment and the delicate balance that needs to be 
maintained. One should be leery of any actions which might 
upset the careful political balance being struck.
    Thirdly, be realistic about what the United States can and 
cannot do with respect to the direction of social, economic, 
and political developments in Ethiopia.
    It goes without saying that America has influence and where 
possible that influence should be brought to use judiciously 
for good. However, our room for maneuver is tighter than ever 
and America's overall leverage significantly diminished by the 
combination of our own general cutbacks in foreign assistance.
    When one looks at the actual figures, there's virtually 
nothing that's discretionary that could be cut back in our aid 
to Ethiopia, and the emergence of other countries and actors 
able and willing to work with the Ethiopian Government, as 
witnessed by the Prime Minister's visit last week to China.
    Fourth, take advantage of Ethiopia's application to join 
the World Trade Organization to constructively engage with the 
country's government not only about economic liberalization but 
other rule of law and governance concerns.
    Even if the publicly-stated goal of completing accession by 
2014 is unlikely to be achieved, the effort does present the 
United States and other international partners with a unique 
opportunity for a more intense dialogue with their Ethiopian 
counterparts, contributing to the enhancing of technical and 
administrative and regulatory capabilities and advance policy 
objectives ranging from liberalizing the banking and 
telecommunication sectors to securing private property and 
other legal rights.
    And fifth, become more engaged in Ethiopia's rapidly 
transforming higher education sector. Ethiopia has gone from 
having three national universities in 2001 to 31 this year.
    If the United States Government could encourage American 
colleges and universities to become more engaged with their 
Ethiopian counterparts, there's the prospect over the long term 
of considerable return both in terms of consolidating the 
cultural and political bonds between our countries and people 
as well as advancing democratic and human development.
    Chairman Smith, Ranking Member Bass, it goes without saying 
that there are a number of things one might wish to see done 
differently, perhaps even better with respect to the ongoing 
social, economic and political development of Ethiopia.
    Nevertheless, the context in which the post-Meles 
transition and other developments are occurring needs to be 
taking into account an objective progress both in absolute 
terms and relative to the rest of a very troubled but 
geopolitical strategic region.
    In that perspective, it behooves us to keep in mind 
Voltaire's warning, le mieux est l'ennemi du bien--the best is 
the enemy of the good--and allowing a healthy dose of political 
realism about our own interests and those of the peoples of 
Ethiopia to temper judgmentalist impulse and direct our 
energies instead where they can be most effective in 
encouraging, facilitating, and sustaining continued stability 
and progress in Ethiopia and beyond.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Pham follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Dr. Pham, thank you very much.
    Mr. Metho.

 STATEMENT OF MR. OBANG METHO, EXECUTIVE DIRECTOR, SOLIDARITY 
                  MOVEMENT FOR A NEW ETHIOPIA

    Mr. Metho. Mr. Chairman, thank you for inviting us to come 
here about the--talking about Ethiopia. I would like my 
statement to be submitted in the record and I think that the 
speakers before me have already said a lot and I will try to 
summarize.
    From what we heard going back to the subject of Ethiopia 
after Meles, I think we need to go back what happened when 
Meles was here and I think that this is something that most of 
us need to be aware of.
    When Meles was alive or when he went to the bush he went 
with an organization called Tigrayan Liberation Front to 
liberate a section of a country, not to liberate Ethiopia. And 
when they took over they did not change it.
    They have created what they call EPRDF, to fool the 
outsider that Ethiopians are united while they're still running 
the ethnic base.
    I think this is something that we need to not dismiss. In 
Ethiopia today, for the last 20 years, is being led by an 
ethnic base and this is something that we should not miss.
    So when Meles was alive, he was being known and I think 
Yamamoto put it very well--charming to the West, brutal to 
Ethiopia.
    Saying that lie, a war on terror, he's terrorized his own 
peoples. Saying that the economy grew, it's booming----
    [Applause.]
    Mr. Metho [continuing]. Saying that economy grew, booming, 
just ask other Ethiopians that were being displaced from their 
land. Food aid that's been given has been used as a tool.
    The list can go on, when Meles was alive. Now, let me come 
back what has changed. Last time--and, again, I thank you, Mr. 
Smith, for your extraordinary leadership--8 years ago when 
there was a briefing here I came and testified for 424 people 
from my own ethnic group and from Gambella where 193 Ethiopians 
were killed, for the Ethiopian political prisoners including 
Dr. Berhanu Nega, who is beside me.
    That was 8 years ago. Yamamoto was with me. He said there 
was a crossroads. Eight years--can you not cross this road?
    [Applause.]
    Mr. Metho. Yamamoto claimed that by that time Ethiopia at 
the beginning of a new chapter. This book--there have never--
any other chapters since then.
    The point I want to make is this. I agree with some of the 
peoples. I disagree with some. The USAID talked about progress 
in Ethiopia. Peace and reconciliation in Ethiopia there's 
antiterror laws.
    It is against the law for reconciliation, child rights, 
woman rights, disabled--the value that which really the 
Americans depend on and we call that there's progress in the 
country.
    These are some of the issues that I want to mention. In my 
point I am speaking as human rights and I am speaking as an 
Ethiopian because if something is happening in Ethiopia to the 
outside it's happened to Ethiopia and to me, it's happened to 
my family members and this one point that I need to mention.
    One point that I need to not miss in Ethiopia the 
journalists are locked up in jail. In Ethiopia, what we need, 
the Ethiopian people, are simple things. We need to be given a 
choice.
    All of you who are sitting, Mr. Smith, some people--you are 
representing people. In Ethiopia we are denied to have our own 
submit that we choice and that what we are asking for, nothing 
less.
    In that matter, right now Meles is gone, the regime is in 
place but at the end of the day the Ethiopian problem will not 
be solved by the outsiders but the Ethiopian.
    We had many chances. When the king, Haile Selassie, 
collapsed we missed that opportunity. When the Derg collapsed 
we missed that opportunity. At that time there were a gentleman 
in this House. The thing he predicted is what's going on today.
    Right now, Yamamoto may say that Ethiopia is a cause lost 
but Ethiopian is different and I will like to now read a 
statement that I would like for all of us to know.
    The reason why I say that it's not an American--the simple 
things that we are asking we are not asking Americans or the 
Western to free us. We are asking them not to be a roadblock to 
our freedom. We can free ourselves.
    And how do we do that? It's simple. For the last 12 months, 
the Ethiopian Muslim Brothers were protesting just to choose 
the leaders who can preach them.
    Ethiopia denied them their free protesting peacefully. The 
government want to divide them and say that the Ethiopian 
Muslim are radical extremists and I say that they are not.
    The Muslim and as a Christian and Ethiopian we don't share 
faith. We don't share land. We share blood and the blood cannot 
be taken away from us. We are one people.
    [Applause.]
    Mr. Metho. The hope and the change I'm seeing--just a few 
weeks ago the Blue Party have took the leadership to bring 
Ethiopia out. They call the people and Ethiopians show up. And 
before they show up let me read a statement I got from one 
young man:

          ``Dear Obang, it is now just 4 hours before we go out 
        to rallies. I don't know what will happen. This may be 
        my last message. The last time I went out, 2005, with 
        three of my friends I was the only one that came back. 
        This time I may not come back. I'm looking forward to 
        this. It seems like going to a war zone. The only 
        difference is the other side have guns. I have nothing.
          ``If they shoot I have nothing else to deliver. This 
        is the kind of country that we are living in, Obang, 
        but higher moral ground and that's why I'm going out 
        and I'm not afraid and I want somebody to know.''

    This is the kind of government that the U.S. is funding. 
And this is the point that I just want to conclude, Mr. Smith.
    The Ethiopian we have enough opportunity. We have enough, 
many Ethiopians. What we need is to work together, people to 
people, and those peoples they're not the one in Addis Ababa. 
The Ethiopian taxi driver who will pick you up, the Ethiopian 
who are working at Starbucks serving you coffee, the Ethiopian 
that are working at a parking lot, the Ethiopian in DC, they 
want freedom like everybody else. We are not begging. When 
Obama run for President he said that we need change.
    Some Ethiopians who were working minimum wage pay and 
hoping that they will hear from Obama. We never heard that. We 
are not disappointed. We will free ourself. Thank you.
    [The prepared statement of Mr. Metho follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Metho, thank you very much for your 
testimony.
    Mr. Akwei.

STATEMENT OF MR. ADOTEI AKWEI, MANAGING DIRECTOR FOR GOVERNMENT 
              RELATIONS, AMNESTY INTERNATIONAL USA

    Mr. Akwei. Thank you, Mr. Chairman, Representative Bass. 
Amnesty International continues to look forward to working with 
you and to thank you for your leadership on behalf of the 
issues in Africa as well as on human rights.
    I'm going to be very, very brief because I know that we're 
running out of time but I think the panelists who spoke before 
me have already said that this is a window of opportunity and 
that it's closing fast.
    This is an opportunity not only for change in Ethiopia but 
also for change here in Washington in terms of U.S. policy 
toward the country.
    What we have seen not only in Ethiopia but in other parts 
of the world is that history shows that governments tend to 
harden as oppose to soften if they are not--if they do not 
seize the opportunity for reform at the beginning, at the 
start.
    And so I would urge that this committee and Congress push 
the administration to recalibrate and to revisit what it is 
exactly is going on in Ethiopia, what the government's genuine 
commitment in Ethiopia is to human rights and the rule of law, 
all of which are going to be critical and essential in terms of 
its future whether as a democracy or, as the first panelist 
said, where it's the alternative future, which nobody here 
wants.
    I would also say that there are many levers that the United 
States has not yet used in terms of applying or challenging the 
Addis Ababa regime to meet its human rights obligations.
    For example, the Ethiopian Government is a party to the 
ICCPR, to the Geneva Conventions, to the Convention Against 
Torture, to the African Charter on Human and Peoples Rights. 
The Ethiopian Government is also a party to the African Charter 
on Democracy, Elections and Governance.
    All of these are very clear in what governments are 
supposed to do in terms of creating free and fair conditions 
and basic accountability by the ruling government to respect 
human rights and free expression.
    Despite that--and excuse me, the Ethiopian Constitution 
also has at least 30 human rights provisions in it that speak 
to fundamental freedoms and rights.
    Despite this, the litany of human rights concerns and 
abuses is, sadly, very depressing and these are issues that are 
not only reported by Amnesty International but by other human 
rights groups and the United States Department of State, which 
puts out its annual Human Rights Report--very specifically, 
issues of freedom of expression, crackdowns on human rights 
defenders, torture and ill treatment, which you mentioned 
earlier, the conflict in the Somalia region, which my 
colleagues have also referred to, the issue of villagization.
    But the others are even more profound--for example, the 
lack of effective institutions. The Ethiopian judiciary 
continues to lack independence and resources and, as has been 
illustrated in recent trials, is not yet a guarantor of rights 
or justice for the Ethiopian people.
    The National Human Rights Commission is also severely 
lacking independence. Amnesty International believes that 
political will is the biggest obstacle to effective independent 
human rights and democratic institutions, and while the current 
political mind frame of the government remains unchanged it 
will be extremely difficult if not impossible for effective 
institutions to exist and to operate.
    The final human rights concern that I would like to raise, 
obviously, is precedent and that has already been discussed--
the 2005 elections and the crackdown that happened afterwards.
    Those are not things that were ever accounted for. The 
numbers were never fully clarified and, certainly, there was 
never accountability.
    Those are things that this government still is accountable 
for and has to answer to. I would just go, finally, to close to 
just try and remember that we're dealing with human beings and 
individuals--lots of them but, indeed, precious in their 
individuality.
    Eskinder Nega, Debebe Eshetu, Yusuf Getachew, Akmel Negash, 
Yishak Eshtu, Temesgen Dessalegn--all of these are just a few 
of the names of Ethiopian heroes who are challenging and 
fighting for individual rights and the rule of law in their 
country who have suffered the brunt of the government's 
crackdown and its repression. There are thousands more like 
them and some of them we don't even have the names on.
    Mr. Chairman, we believe that without the full enjoyment of 
human rights by all Ethiopians it will be hard to see how the 
country will fulfil the promise of individual freedom and 
dignity that it has claimed to espouse since the ouster of 
Mengistu in 1991.
    Since 2005, the human rights situation in the country has 
deteriorated further with significantly increased restrictions 
on freedom of association, expression and other rights.
    As I said and as Chairman Smith also noted, this has not 
happened in a vacuum and the international community is also in 
need of looking deeply into its policies and changing them.
    The failure to speak out and press for change by the 
Ethiopian Government is critical and it has allowed Ethiopia to 
set a dangerous example for other governments in the region and 
has kept Ethiopian people themselves at risk of human rights 
violations and repressive governance.
    We hope that the President will speak to some of these 
issues on his upcoming trip to the continent, in particular, 
the issue of civil society and the important and legitimate 
role that it plays in a healthy democracy and in the enjoyment 
of human rights by citizens and peoples in a particular 
country.
    But we also hope that the discussion of legislation and of 
policies that are being conducted by the Meles regime--by the 
post-Meles regime including the Anti-Terrorism Proclamation, 
the Charities and Societies Proclamation and other laws will 
also continue to be raised not only by Congress but also by the 
administration.
    Thank you very much.
    [The prepared statement of Mr. Akwei follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you so much for your testimony. I regret 
that there are a series of votes that will take about an hour 
so I'll be very brief.
    If anyone would like to stay, I'll be back in an hour but I 
know that's presuming on your time, and maybe Ms. Bass can come 
back too. I'm not sure what her schedule might be.
    But let me ask some very quick questions. First of all, Mr. 
Akwei, I think your point about a window closing is a very, 
very important one.
    If the international community coalesces and somehow 
accepts the egregious human rights abuses as okay, if little 
changes around the edges bring about a great deal of positive 
feedback from the international community, this has not been 
helpful. That includes during the Bush administration, as well 
as now during the Obama administration. I would suggest that 
for those who are suffering torture--and there are 400-plus 
political prisoners in Ethiopia--and everyone else who is 
suffering, delay is denial.
    You said it very well, political will, I would say 
paraphrasing you, is a decision which can be made and that's 
what leadership is all about. You don't lead from behind. You 
lead by being the Prime Minister who says we are going to 
change this.
    I announce today we are going to reintroduce the Ethiopia 
Human Rights Act with very serious benchmarks----
    [Applause.]
    Mr. Smith [continuing]. And about the balance that the 
administration spoke about, I think it is unbalanced, I agree 
with combatting the HIV/AIDS pandemic and all the other 
humanitarian initiatives but the political side, the changes, 
the good governance, is absolutely a prerequisite, as was said 
by Mr. Gast as well, to the sustainability of all of those 
other programs as well.
    The Charities and Societies Proclamation, that is an 
outrage. The journalists point that Dr. Nega talked about, he 
knows about, he suffered in prison. He knows what it's like. He 
knows what fellow inmates suffered at the hands of Meles and 
people continue to suffer today.
    When you pointed out that Ethiopia is the leading jailer of 
journalists--and I hope the media takes note of this--in sub-
Saharan Africa and ranks among the top ten in the world, that 
has to change.
    An unfettered press keeps checks on the Congress, on the 
President. It needs to do the same in Ethiopia. So thank you 
for your testimonies. They were very, very strong.
    You said, Dr. Pham, tantalizingly, I would hope that for 
Prime Minister Hailemariam, that things will move in the right 
direction; but still, friends don't let friends commit human 
rights abuses.
    We have waited. We've talked about this. When do we do an 
Ethiopia hearing? We had hoped that there would be changes 
sooner rather than later and as you said, Dr. Akwei, that 
window is closing and it's not opening to reforms and that's 
what we need to fight for. So thank you so much.
    Ms. Bass.
    Ms. Bass. Yes, and I'm----
    [Applause.]
    Ms. Bass [continuing]. I'm so sorry that we do have to 
leave to go to votes and unfortunately I won't be able to 
return but--and I'm hoping though that maybe we can have 
another hearing on Ethiopia soon to follow up with this.
    You know, Dr. Nega, you mentioned a term that sent chills 
up me, frankly, which was ``constructive engagement'' because I 
think I've heard that term before, and so that's a very 
chilling notion.
    I wanted to know, though, if you would comment on a couple 
of things that Dr. Pham said. You know, you certainly pointed 
out all of the difficulties but you did say that you thought it 
was a little bright light that organized opposition was 
allowed--the protests that just happened--and I guess there's a 
window that there could be more protests in the future, and 
then also higher education.
    And I wanted to know if you could just comment on those, 
and let me just say that I just really appreciate everybody's 
participation and everything and I just hope that we'll be able 
to return and have a more lengthy hearing.
    Mr. Nega. Thank you. Let me just very quickly say something 
before I go into the specific question about the statistics and 
the data that you hear about improvements and things of that 
sort.
    I would like to suggest to anyone who is dealing with 
Ethiopia to be very, very cautious about what kind of numbers 
they are playing. I mean, according to official data right now, 
Ethiopia has less poverty than Mexico. It has less poverty than 
Botswana. It has less poverty than a number of European 
countries.
    That is official data. You know, in 2010, they came up with 
a number in one region in Afar where they said 5 million kids 
are going to school that year. The total population of Afar is 
1.4 million. That's how absurd this data is.
    And that is the kind of numbers that you hear these 
international experts come up and then talk about how things 
are improving. I would really--it is very hazardous.
    I'm an economist by training and I know how these numbers 
are put together. So it would be better to be careful about 
that, cautious about that.
    But to the question about improvements, I really want you 
to take something very, very seriously, Ms. Bass. What I see is 
conflict. What I see is war. What I see is a civil war coming 
to Ethiopia.
    Ms. Bass. Okay.
    Mr. Nega. In fact, that's one of the reasons why I want to 
testify today and I want you to take this seriously because 
this country is not going into the same way that it has gone 
over the last 21 years.
    I think people are fed up, I think people are going to 
fight and nobody can blame people for fighting against tyranny. 
That's where it's going.
    Ms. Bass. Do you think that there is an organized--do you 
think the opposition is organized enough to----
    Mr. Nega. Yes.
    Ms. Bass [continuing]. Actually wage that----
    Mr. Nega. I do--I do believe that the opposition----
    Ms. Bass. Do you think there is conflicts in the--conflicts 
in the existing government then?
    Mr. Nega. Yes. I do believe that the opposition that was 
fractured has started to seriously talk about mounting a 
unified challenge.
    That's what is going to happen and that's why I'm trying to 
be more, you know, if you might call it alarmist in the sense 
that if people in the policy making apparatus think that you 
can just keep going the way you are going about it, a surprise 
is coming to you.
    Ms. Bass. Okay.
    Mr. Nega. That is a very, very dangerous game that people 
are playing.
    So that's why I say, you know, did it allow this 
demonstration recently? They did. But are they going to allow 
in the future? I don't think they will.
    Ms. Bass. So one more quick question. I know when I talk to 
my constituents they believe that we should cut off all foreign 
aid and I feel a little conflicted over that, considering the 
humanitarian challenges, the food insecurity, the HIV and 
maybe, you know, other panelists could comment about that. Is 
that what the U.S. should do, end all foreign aid? Yes.
    Mr. Metho. I think that the U.S. has the leverage and the 
leverage that the money that we're giving I think that earlier 
when we heard from the USAID they're saying that they give $300 
million for a democratic process.
    Where? Where is democratic process in a country where we 
know that, you know, almost every seat is held by the same 
government?
    So that kind of funding going for that that's not going to 
go and help with the poor Ethiopian. That is helping the 
regime.
    That's a leverage that this money that we give for the 
regime, you know, it's--there are a lot of money which is 
really not going to the peoples.
    The money that goes for the people we should give it to the 
people. The second thing too is lack of transparency and 
accountability, and this is a clear cut that most of the time 
people don't talk about this.
    Just recently examples, people were displaced in some--in 
the west part of Ethiopia. The World Bank inspector finally 
went to investigate. The Ethiopian Government they don't want 
to cooperate with the World Bank.
    Just like me giving you--you give me the money to feed my 
family, you say did you feed my family I say none of your 
business.
    So there is a way that the funding--when I say earlier we 
need the U.S. support you can--this has been done in Burma. 
It's been done in other places.
    There's no political space. There's no, really, any media 
at all in Ethiopia. You know, the journalists are being accused 
as a terrorist. People who are activists, just like me. Like in 
Ethiopia, for example, even all of these journalists if they 
were in Ethiopia they will be accused of it generally.
    For me, I never held a gun. I never talk about any war or 
anything. But the Ethiopian Government labelled me. Among the 
24 people who wear labels I was one of them just because I 
speak the rights.
    So the point is going back to what Dr. Berhanu said. Before 
it go to war Ethiopian people have suffered enough. 
Reconciliation can be done. The people in Ethiopia there are 
some moderates within the government.
    There are some moderates within the opposition. That if the 
U.S. take that initiative--we had enough blood. We have--HIV 
and lack of food is killing us. We cannot kill each other but 
what we are asking is reconciliation is possible. It's never 
been tried before and there's no way one cannot do it.
    Ms. Bass. Thank you. Thank you.
    Mr. Smith. Again, I apologize. If you could hold that. 
We're out of time for voting so Ms. Bass and I have to run over 
to vote.
    There's seven votes and eight in succession. They should be 
rather quick but then there's another series of votes about 20 
minutes to 30 minutes after that.
    If you can stay I would ask you to. We'll come back, ask 
some additional questions. You might want to elaborate, and 
then we will have to conclude the hearing.
    Thank you.
    [Recess.]
    Mr. Smith. The hearing will resume its sitting and, Dr. 
Nega, thank you for your patience. I, again, deeply apologize 
for these interruptions with votes.
    We have been joined by Congressman Stockman, who has been a 
leader on African issues. He is a new member, but not a new 
member to this work. He's back, on a return trip to the House, 
and I yield to my good friend.
    Mr. Stockman. Thank you for coming out. I'm really serious 
about thank you for your patience. We normally don't have that 
many votes in a row and--but I've been to your beautiful 
country and I appreciate you coming out today.
    And we always have in this committee very good staff, very 
good people and an excellent chairman. I'm biased but I think 
he's a great chairman, and but one of the things we always like 
to hear from the witnesses is how we can help you achieve goals 
in your country.
    Sometimes Americans are interpreted as being too 
interventionist, where we're criticized if we go in, such as 
Iraq, and then now we're criticized for not going in Syria. So 
we're kind of damned if we do, damned if we don't.
    So we want to get from you what the proper temperature we 
should do and what kind of things we can do to facilitate 
freedom in your country. It's disappointing that it's gone this 
way in this direction and that you had to suffer so deeply.
    So I will yield to you the direction you should give us.
    Mr. Nega. Thank you, Congressman Stockman.
    I understand perfectly that realistic politics is a 
difficult business. I mean, it's not an easy thing. 
Intervention always have a problem especially if it has 
something to do with intervening by force and things of that 
sort.
    What we are talking about now is the degree to which 
American taxpayers' money can be used to effect some of the 
basic principles and values that this country holds dear.
    Unfortunately, what has been going on in Ethiopia is that 
the U.S. taxpayers' money is being used to shore up a 
dictatorship that's so brutal that raises quite a lot of 
questions in the minds of Ethiopians that, you know, this is 
not the America that we know. This is not the America that we 
understand and American relationship, as you know, goes a long 
way, although some people really understand the realistic 
issues that are involved in terms of national security reasons 
in the region and things of that sort.
    What people don't understand is where is it that countries 
would start to say enough is enough. Now, and what I submitted 
today is this is not just about Ethiopia and humanitarian 
issues in Ethiopia.
    Now it has become a serious geostrategy issue for the 
United States because Ethiopia is roughly about 93 million, 90 
million people, the largest country in the region. A 
destabilized Ethiopia is going to destabilize that whole 
region.
    It's a very serious issue and all U.S. strategic interests 
are going to be affected by what happens in Ethiopia.
    So the question is if we let things go the way they are 
would we at least achieve the strategic objectives of the U.S., 
which in this case means a stable Ethiopia that can--that can 
support the antiterrorist struggle in the region.
    And the answer to that, I believe, is unfortunately the way 
things are going that's not going to happen because Ethiopia 
itself is going to be destabilized because after 21 years 
people have become so traumatized.
    People have literally given up hope that there is a 
possibility of peaceful transition that there is now more 
recourse toward armed resistance against the state.
    Now, you can imagine once armed resistance starts you don't 
even know which direction it takes. I mean, if there is 
anything about Syria that we can talk about, you know, it 
started as a peaceful resistance.
    The state refused to relinquish power. You know, one thing 
leads to another. People start to get fed up and they go into 
this--then at that point you don't even know who is--which one 
you are going to be able to influence.
    Mr. Stockman. I have limited time. I guess what I'm asking 
you, if you were in my shoes and you were given this guidance 
on a bill we could write what would you recommend that we put 
in that bill to facilitate a positive outcome in Ethiopia?
    Mr. Nega. A very clear targeted time bound set of issues 
that leads toward meaningful democratization in the absence of 
which U.S. foreign aid to Ethiopia would be seriously 
endangered. That's number one.
    Two, the U.S. work with other allies, especially the 
European Union, to work toward this objective because Ethiopia 
is really amenable to financial pressure.
    This is not a government that could just brush away--you 
know, although they say this always that, you know, you can 
take your money and, you know, we can tell you what--that is 
not a government that can allow that.
    So use your financial support to the government to good 
end. Use it to effect substantive change in the behavior of the 
state. That is what I would say.
    Mr. Stockman. Do you think a delegation from United States 
would impact, if we visited there and said we have these 
concerns?
    Mr. Nega. If the statement is very clear, if it is 
something that you can back it up. I mean, this is not the last 
delegation that go to the U.S. I mean, Congressman Smith has 
been there repeatedly. Donald Payne has been there. I mean, 
there are Congress people going always.
    The point is they will always tell you exactly what you 
want to hear and the minute you leave they go on behaving the 
way they are behaving.
    Unless otherwise you have a tangible set of measures that 
you would take--unless otherwise, X, Y, or Z happen. And in 
that case what you are saying is then our money, our taxpayers' 
money, is not going to be used for this.
    You can do whatever you want. We will not intervene 
militarily or anything but our money will not be used unless 
otherwise X, Y, Z. Release prisoners. We'll give you X amount 
of time. Introduce a series of reforms.
    Mr. Stockman. Release the press that they have----
    Mr. Nega. The press that the government owns that is not 
used for anything else. Respect your constitution. Just respect 
the constitution that are written.
    Mr. Stockman. We're trying to get that done here. No, no, 
no, I'm just----
    Mr. Nega. But, you know, the national election board, these 
institutions, the justice system, you know, there are things 
that can be done to actually introduce a set of reforms so that 
people can start to play by the rules.
    Mr. Stockman. The intervention in Somalia, how much does 
that affect the economy and the budget of Ethiopia?
    Mr. Nega. You mean--I don't think that was fought from 
Ethiopia's purses.
    Mr. Stockman. Well, I understand there's--you have some 
soldiers in another country. How much does that cost the 
government?
    Mr. Nega. But I don't think the Ethiopian Government pays 
for it.
    Mr. Stockman. Oh, you think United States does?
    Mr. Nega. I can tell you that the Ethiopian Government is 
not--in almost every place that the Ethiopian army is it is 
either the U.N. or the U.S. or somebody else paying.
    Mr. Stockman. Well, even the U.N. I think we end up paying 
for.
    Mr. Nega. Exactly. Indirectly you'll start paying for it, 
yes.
    Mr. Stockman. So it's not coming out of the pocket--there's 
no impact on the budget? Okay. Except for life and time and 
material.
    Mr. Nega. Yes.
    Mr. Stockman. So your suggestion is we--if I understand 
correctly, if I hear you correctly, is that we say if you don't 
have free elections release the press, release the prisoners, 
then we will cut it by a third by next year.
    We'll cut it by another third the year after that and then 
cut it all off if you don't receive it in 3 years or something 
like that----
    Mr. Nega. Yes.
    Mr. Stockman [continuing]. Timetable? We would direct the 
State Department and other agencies to that effect?
    Mr. Nega. Yes, and very importantly coordinated with other 
allies, particularly the European Union. When we talk to the 
European Union they always say that the U.S. has to take a lead 
on this, that if the U.S. takes a leadership position on this 
the European Union follows.
    Then literally that's the whole aid money that's going to 
the country and it's not going to happen. Trust me, it's not 
going to take a year or two before the government starts 
responding because they cannot survive without that aid money. 
They just can't.
    Mr. Stockman. Okay. Well, that's helpful because as we're--
I think you need to take a standing--I appreciate the 
audience's participation too.
    But I'm glad you're directing us because, honestly, from 
this side of the table we can't do it without input from people 
that have been there and know what's going on and we don't want 
to go too far one way or not do anything and I really 
appreciate you taking the time and staying so long.
    I yield back. Thank you.
    Mr. Smith. Thank you very much. Let me just ask some final 
questions and then I will ask if you have any final comments 
you'd like to make.
    How would you assess President Obama's assessment of the 
situation on the ground and his policies, particularly as it 
relates to human rights and governance?
    Mr. Nega. Well, I think for the Ethiopian community in 
general President Obama's policy has been a bit of a 
disappointment in the sense that, you know, if you remember the 
first few speeches that the President has made in relation to 
freedom and liberty and democracy in Africa--I mean, the Ghana 
speech and, you know, everybody was hoping that a new day is 
going to come in Africa because we all know at the end of the 
day even the economic issues that we face are directly tied to 
these issues of governance and human rights and things.
    So everybody thought not only our politics is going to 
change, not only human rights is going to be respected but even 
prosperity can come. Corruption can be tackled. You know, when 
you have an accountable government a whole host of issues.
    So everybody was hoping that President Obama would follow 
on what he has said and one of the biggest disappointments for 
most Ethiopians, I would say, is precisely the fact that it has 
become an administration that cannot follow on what it promises 
to do and it's always disappointing when you hear that.
    Mr. Smith. Let me just ask a question with regards to the 
21 years that Ethiopia has been headed by a minority ethnic 
group.
    After being in power for the past 21 years, it is well 
positioned to remain in power without the leadership of an 
internationally known Prime Minister. How do you see the ethnic 
politics in Ethiopia playing out in the years to come?
    You've talked about this cauldron. Are we missing the 
signs? We missed them in Egypt. When the people took to the 
streets of Egypt, I heard euphoria at the State Department, the 
White House, and here in Congress.
    I said this is the bridge of the Muslim Brotherhood and I 
held three hearings on Egypt and about how Islamists would 
crowd out moderate Muslims very quickly, as well as Coptic 
Christians. Sure enough, now Egypt is far worse than it was 
under Mubarak.
    I don't see that kind of thing happening in terms of an 
Islamist type of movement, although there are always threats, I 
know all of us would like to see, an absolutely peaceful 
transformation.
    But if we miss the signs and don't take the steps that we 
need to take, unwittingly, I think, we can enable that. What's 
your view?
    Mr. Nega. There are two parts--two parts to this, 
Congressman Smith. One is on the side of what the government is 
doing and other one is on the side of what the people and you 
are not doing.
    For the government, it was part of its raison d'etre to 
divide people along ethnicity, along religious lines because 
the only way that a minority government, a government that 
represents 6 percent of the population ruling strictly on the 
base of ethnicity--strictly, I mean, this is a government that 
says your identity is your ethnicity.
    You cannot even say you are an Ethiopian. You have to say 
you are from a particular area. This is the politics that they 
have introduced into this country.
    The only way that they can survive with that kind of policy 
was if they could divide the society. So purposely 
calculatively they have divided society so that one ethnic 
group would be against the other.
    Now, the chickens are coming home to roost. You know, this 
has now stayed for over 20 years. People have started to think 
of themselves in terms of ethnic groups and they try to foment 
conflict.
    Recently, as you have seen, they kicked out Amharas from 
the Benishangul in the southern region so that deliberately 
there is that hostility. That is the bad part. If the 
government--if things go the way the government wants them to 
go, Ethiopia is on a very, very treacherous dangerous course.
    The good sign, on the other hand, is on the side of the 
public. Despite all this repeated deliberate fomentation of 
hatred and difference, people keep saying no, we still want to 
keep our country peaceful. We still want to live with other 
ethnic groups in peace. All we want is our rights to be 
respected.
    The other very good thing that's happening is at least 
among the opposition we have started for the first time hearing 
that these different ethnic-based organizations have come 
together and say at the end of the day what we want is a real 
democracy in our country. If a real democracy comes, then these 
ethnic conflicts can be seriously addressed.
    So those are the two trends that are taking place and my 
hope is that the opposition gathers the strength so that it can 
stop this deliberate conflict that's being created by the 
government.
    Mr. Smith. Earlier today, Amnesty International's 
representative, Mr. Akwei, spoke at great length, particularly 
in his written submission, about the use of torture. I've 
raised torture many times. I've written laws to combat torture, 
raised it in our Ethiopia Human Rights Act, as one of the 
conditionalities.
    Why were people so disbelieving or why did they look 
askance? I'm talking about our own Government under President 
Bush as well as under President Obama. You know, it's there in 
black and white and it seems to get looked over. We look 
askance. Why is that? I'm baffled by it.
    Mr. Nega. Honestly, Congressman Smith, I honestly think 
certainly it's part of human nature. You want to believe what 
you want to believe.
    You want to believe not the facts on the ground, not what 
you see, but what you think is the thing that you need to 
believe in order to do what you are doing continuously.
    The U.S. administration has historically been interested in 
Ethiopia on security and other grounds. The U.S. administration 
wants to continue the relationship with Ethiopia. In order to 
do that it has to come to terms with this issue of a brutal 
regime that is torturing its own people, that's killing its own 
people. Then how do you--how do you merge the two?
    Usually, the human mind, I think, plays tricks on you and 
you say it's not happening, I mean, you know, or you try to 
ignore it. You try to think as if it is not happening. It is 
denial.
    That is exactly what is going on in the policy making 
circles of the United States and Europe. They just don't want 
to believe what they see because then they have to do something 
about it.
    Then they have to do something real about it and they can't 
do anything real about it. They don't want to do anything real 
about it.
    Mr. Smith. Let me ask you, you spent some considerable time 
in your testimony on the interference in religious affairs and 
you talked about the manipulation of the leadership of the 
Patriarch of the Ethiopian Orthodox Church.
    Could you expound upon that? Because that is a very serious 
assertion and it seems to me that, you know, we do have the 
International Religious Freedom Act.
    There is a commission which has written about these issues 
before relative to Ethiopia. It would seem to me this should be 
an engraved invitation to do it again to them, and we also have 
the international religious freedom office at the U.S. 
Department of State. In your view, how bad is it?
    Mr. Nega. Oh, it's really bad. I mean, it's bad to the 
point where--I think the U.S. institution that deals with 
religious freedom recently had a hearing, I think, on the issue 
of the Muslims and for the first time openly acknowledged that 
this was a gross--a result of gross intemperance, in fact, a 
deliberate taunting as if, you know, because when you say 
Muslim and terrorism the two come together and the Ethiopian 
Government thinks that by calling them terrorists while it 
actually is taking away their own religion and trying to impose 
its will on them.
    With the Orthodox Church, this is the first time in 
Ethiopian history that the Orthodox Church is openly split into 
two. There is the patriarch elected by the government and its 
supporters and an exiled patriarch.
    As you know, the basic rule in the Ethiopian Orthodox 
Church is you don't change a patriarch until the patriarch 
dies. This government came and changed the patriarch while he 
was still alive and the patriarch left and he has now created, 
you know, around him another synod where most people in the 
Diaspora are now settled.
    This is the first time in Ethiopian history that the 
Ethiopian Orthodox Church was purposely split. The same thing 
they are trying to do with the Muslims.
    It is--you see, this is--as I said in my written statement, 
it is a government that is allergic to the existence of any 
independent body, whether it's religious, whether it--they have 
to be under their control.
    That's what they are doing. Unfortunately, as you know, 
religion is a very sensitive thing. As you push people then 
they start to resist. That's exactly what the Muslims are 
doing. That's what we will expect that the Christians will be 
doing too.
    Mr. Smith. One or two final questions on the Charities and 
Societies Proclamation, which I think gets very little notice 
in Washington. It gets some, but it seems to me it ought to be 
getting much more because it does have an antiterrorism 
component, and under the rubric of antiterrorism, a whole lot 
of bad things can be pushed. Could you tell us what you think 
are the worst aspects of that law?
    Mr. Nega. The worst is that there are these five areas in 
the law that deal with any institution that deals with human 
rights, that deals with children's rights, that deals with 
reconciliation, that deals with--I forgot the other two--
anything that has to do with human rights and any institution 
that deals with these issues cannot get foreign funding, 
period.
    Now, anybody who knows Ethiopia, all NGOs, all these 
institutions, operate on the basis of projects that they put to 
foreign donors. All of them are closed now. Ninety percent of 
these institutions are closed.
    So if I have to pick one terrible aspect of this law, it is 
the fact that everything that has to do with human rights and 
good governance is completely out from Ethiopia.
    But let me say one last point about this. It is very 
important, Congressman Smith, to realize that the Charities and 
Societies Proclamation is one part of a broader capture of 
institutions in Ethiopia.
    There cannot be independent institutions so far as this 
government is in power. They cannot allow independent 
institutions. That is what this law is about.
    Mr. Smith. Yesterday the U.S. Department of State in a 
very, very important ceremony, and I was there with Secretary 
of State Kerry, released this year's Trafficking in Persons 
Report.
    Parenthetically, I'm the author of the law that authorized 
that report and addressed many other aspects on combatting 
human trafficking.
    It's known as the Trafficking Victims Protection Act of 
2000. Ethiopia was given a Tier II rating, which means that it 
has a serious problem with trafficking, but that it is making 
or taking actions to combat it.
    And I have been in at least one of the USAID-supported 
shelters in Addis Ababa on one of my trips there so I know we 
are trying to provide aid to help the victims and to more 
effectively end trafficking there.
    Have you had the time, and I know it only came out 
yesterday, so you might want to take this question and take a 
look at the narrative that's in the TIP Report, but are you 
satisfied with that rating? I would have hoped to have asked 
some of our other witnesses this as well.
    It had the same rating when we had our hearing in 2006, 
Tier II. Are they making progress, serious and sustained?
    Mr. Nega. Congressman Smith, this is in fact--I think it 
was last week that the Ethiopian Government officially for the 
first time talked about the problem of human trafficking 
officially, for the first time, and the Ethiopian Government 
including the Prime Minister were on TV saying this is the 
fault of those who are leaving because they don't know how good 
they have it in Ethiopia.
    That was their understanding of what actually is going on 
when tens of thousands of Ethiopian young women go to these 
Middle Eastern countries. While some of them were thrown from 
three or four stairs, killed, raped, and this is what the 
government knew was going on.
    I mean, if you go to the Ethiopian immigration authority 
office, the line that you'd find is kilometers of these young 
women coming from rural areas, urban areas, trying to get the 
hell out of that place, and there are officially organized 
institutions that are actually doing this--government-owned 
government-sponsored institutions.
    So they talk about human trafficking and anybody believes 
that they are really against human trafficking? It really is 
mind boggling how the West wants to believe this when actually 
thousands, tens of thousands of people, are leaving the country 
under organized trafficking of human beings in Ethiopia.
    Mr. Smith. In the 2 years leading up to the so-called Arab 
Spring when Egypt went from Mubarak to Morsi, the amount of 
money the U.S. Government dedicated to civil society and 
democracy dropped significantly and it's a matter of record.
    Many of us complained. Yes, foreign aid has been cut so 
there are difficult choices that often need to be made. I asked 
earlier today about the balance that Ambassador Yamamoto and 
Mr. Gast talked about. In 2013 we're spending $351 million in 
total aid given to Ethiopia, $1 million of which is for civil 
society.
    That's a Congressional Research Service number and maybe 
there's further explanation for that and maybe it's more but 
that's their number.
    I'm wondering, and I did ask that question, whether that 
shows some disproportionality and perhaps the lack of focus on 
building up civil society as a bulwark from authoritarianism or 
worse.
    Mr. Nega. What they don't tell you in the testimony the 
numbers tell. The $1 million out of the $350 million tells a 
much bigger story than what they will tell you because I 
think--I think the international community has given up on the 
possibility of change through civil society institutions. I 
think after the Charities Proclamation they have said there is 
nothing you can do about it.
    In fact, Congressman Smith, that's exactly why I said if 
you look at the lay of the land in Ethiopia, the possibility of 
change through a peaceful mechanism, through using civil 
society institutions, is gone.
    That's why the West has stopped funding them. That's why 
the whole thing is moving into--so for Ethiopians any hope that 
there could be any change through that route is gone.
    So the choice that they have is either you fight to protect 
your liberty or to get your liberty, or you die as a slave. You 
die as, you know, a subject.
    And that's why I said so far as I know I don't think 
Ethiopians are going to accept tyranny forever. I think the 
little hints that we were seeing in 2005 is now gone--the 
possibility of change through a peaceful mechanism.
    The money that you quoted is simply a reflection of that. 
Everybody has given up. They will tell you all kinds of 
things--yes, we are working on it on this side. The money says 
there is no work done toward building civil society toward 
democratization in any form or shape.
    They have given up. The only thing that is left for 
Ethiopians, that's why, is to fight. There is nothing else 
left. That's why this policy--I mean, while they look at it, it 
is going in that route and they cannot do anything about it. 
That's what is sad about it. It really is sad.
    Mr. Smith. Hopefully, as Amnesty's witness said, while the 
window is closing, there is still time. I think it behooves us 
on this committee to redouble our efforts and I will.
    We hope to work with a large number of people and get input 
on benchmarks and reintroduce, as I said before, the Ethiopia 
Human Rights Act. Before I close the hearing, Mr. Stockman?
    Mr. Stockman. Thank you, Mr. Chairman.
    I just want to say thank you for taking your time doing 
this. There's 435 members and I'm honored to serve with you on 
this and I'm really touched that we're going to make real 
impact in the world. I'm just honored to be here with you. 
Thanks.
    Mr. Smith. Thank you so much to my friend and colleague.
    [Applause.]
    Mr. Smith. I would, without objection, ask unanimous 
consent the two testimonies be included in the record.
    And I would like to give you the final word and then this 
hearing is adjourned.
    Mr. Nega. Yes. And very quickly, Congressman Smith, I mean, 
I have no words to thank you about what you have done and what 
you would do, and let me assure you this is not just about 
Ethiopia.
    This is about the U.S. interests, and it's very important 
that people realize that this is about U.S. strategic 
interests. An unstable Ethiopia is going to be a very dangerous 
place but that's where we're heading.
    So if something is going to be happening it has to happen 
soon. It has to happen as quickly as possible because people 
have waited for 21 years. I have no basis to believe that they 
will continue to wait for that moment.
    So what you have started in terms of introducing this 
legislation I think is going to be very important. I hope it 
has a bite. I hope it's not just a statement.
    I hope it has a very clear, as I said, clear benchmarks, 
clear measurable elements in it and in doing so you have or you 
will be contributing to maybe, maybe a peaceful transition to 
democracy.
    But at least you have done your part. At least you have 
done your part. Thank you.
    Mr. Smith. Thank you.
    The hearing is adjourned. Thank you.
    [Whereupon, at 2:31 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
              <Hoarfrost><acctof><careof>t<star><o-times>
                  __a<acctof>a<acctof><pound>t<pound>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
 <Hoarfrost><acctof><careof>t<star><o-times><n-iden-3><star>a<acctof>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
    <Hoarfrost><acctof><careof>t<star><o-times><bell><box><bullet>a\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


              <F-dash>\<Hoarfrost><acctof><careof>t<star> 
                     <F-dash><func.-of><Register>\

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
